CERTIFICATE OF SERVICE

I, Wendy Liu, a member of the Bar of this Court, certify that on this 5th
day of August, 2019, I caused to be served by first-class mail, postage pre-paid, a
copy of the foregoing Application for an Extension of Time Within Which To
File a Petition for a Writ of Certiorari to the United States Court of Appeals for
the Fourth Circuit.
Noel Francisco
Solicitor General of the United States
Room 5615
Department of Justice
950 Pennsylvania Ave., NW
Washington, DC 20530-0001
Counsel for the United States of America
I further certify that all parties required to be served have been served.

Wendy Liu

